<html>
<title> - BROUILLETTE NOMINATION</title>
<body><pre>[Senate Hearing 116-347]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-347

                         BROUILLETTE NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   to

CONSIDER THE NOMINATION OF DAN R. BROUILLETTE TO BE SECRETARY OF ENERGY

                               __________

                           NOVEMBER 14, 2019

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov        
        
                               _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-872 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cassidy, Hon. Bill, a U.S. Senator from Louisiana................     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     6

                               WITNESSES

Cruz, Hon. Ted, a U.S. Senator from Texas........................     2
Kennedy, Hon. John, a U.S. Senator from Louisiana................     3
Brouillette, Hon. Dan R., nominated to be Secretary of Energy....     7

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Air Conditioning Contractors of America:
    Letter for the Record........................................    81
Alabama Petroleum Council, et al.:
    Letter for the Record........................................    83
American Chemistry Council:
    Statement for the Record.....................................    86
American Electric Power:
    Letter for the Record........................................    87
American Nuclear Society:
    Statement for the Record.....................................    88
Brouillette, Hon. Dan R.:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    45
Cassidy, Hon. Bill:
    Introduction.................................................     1
Chamber of Commerce of the United States of America:
    Letter for the Record........................................    89
Cortez Masto, Hon. Catherine:
    Letter for the Record from Secretary Rick Perry addressed to 
      Senator Cortez Masto dated 4/24/19.........................    32
Cruz, Hon. Ted:
    Introduction.................................................     2
Edison Electric Institute:
    News Release for the Record..................................    90
Kennedy, Hon. John:
    Introduction.................................................     3
Manchin III, Hon. Joe:
    Opening Statement............................................     6
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Nuclear Energy Institute:
    Statement for the Record.....................................    91
Semiconductor Industry Association:
    Letter for the Record........................................    92
Southern Company:
    Statement for the Record.....................................    93
United States Energy Association:
    Statement for the Record.....................................    94

 
                         BROUILLETTE NOMINATION

                              ----------                              


                      THURSDAY, NOVEMBER 14, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:40 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to consider the nomination of Dan 
Brouillette to be the Secretary of Energy. He is currently 
serving as the Deputy Secretary of Energy, and I am certainly 
one who believes that you have done an excellent job as second-
in-command to Secretary Perry. So we welcome you back to the 
Committee.
    It was good to have a discussion with you last week. I want 
to thank you, really want to thank you, for all that you have 
done at the Department, for your willingness to serve to this 
point and for your willingness to step up in this new and 
higher capacity.
    We have our colleagues here this morning to introduce the 
Deputy Secretary from both Texas and Louisiana. Mr. Deputy 
Secretary, you should feel very welcome by having these 
gentlemen next to you. We will start with Senator Cassidy up 
here at the dais, followed by Senators Cruz and Kennedy to 
introduce the Deputy Secretary this morning.
    Senator Cassidy, if you would like to proceed and we do 
have a full, full complement here this morning and a full house 
behind you, so hopefully the introductions do not consume our 
full morning, but we certainly welcome all the good comments.
    Senator Cassidy.

                STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Madam Chair, what a wonderful way to tell 
me to be brief.
    [Laughter.]
    But it is a privilege to represent my fellow Louisianan, 
Dan Brouillette, as we consider his nomination to be Secretary 
of the Department of Energy (DOE). He is eminently qualified as 
the United States leads the world in all sorts of energy 
issues.
    As Deputy Secretary, he showed a commitment to energy 
security. It is no surprise, as a Louisiana native, he 
understands the importance of U.S. LNG exports creating jobs in 
the United States but lowering greenhouse gas emissions abroad. 
Dan has committed to innovation in ensuring that our national 
labs are at the forefront of developing groundbreaking 
technologies. He has served as the Assistant Secretary for 
Congressional and Intergovernmental Affairs for the Department 
of Energy under President George W. Bush, Staff Director for 
the Energy and Commerce Committee under former Chairman Billy 
Tauzin and is a member of Louisiana State Mineral and Energy 
Board. Dan brings with him a wealth of knowledge and a unique 
perspective. He is ideally suited for the job. I urge his 
speedy confirmation and look forward to his Floor vote.
    The Chairman. Thank you, Senator Cassidy.
    Let's turn to Senator Cruz. Welcome to the Energy 
Committee.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Well, thank you, Madam Chairman. I am very 
glad to be here. Madam Chairman, Ranking Member Manchin, 
members of the Committee, it is my privilege to help introduce 
Dan Brouillette to the Committee. By the way, with apologies to 
my good friends from Louisiana, I am telling you right now, 
Texas claims them and maybe we don't have to resolve that issue 
here this morning.
    Many of you know Dan as a dedicated advocate for American 
energy. To those who don't yet know him well, I can tell you 
that he is eminently qualified and will do an exceptional job 
as the next Secretary of the Department of Energy.
    Dan and his wife, Adrienne, have both served our country in 
the United States Army. They proudly live in San Antonio, 
Texas, where they've raised nine beautiful children, who you 
see all arrayed behind Dan, much like an army preparing to 
stand with their father.
    [Laughter.]
    After Dan served in the military, he transitioned into 
working on energy issues as the Chief of Staff to the Committee 
on Energy and Commerce in the U.S. House of Representatives. 
From 2001 to 2003, Dan served as the Assistant Secretary of 
Energy for Congressional Intergovernmental Affairs. He also 
served on the Louisiana State Mineral and Energy Board for 
three years, and for the past two and a half years Dan has been 
serving as Deputy Secretary of Energy.
    In addition to his years in public service, both in the 
military and in government, Dan also has extensive private 
sector experience. Dan spearheaded Ford Motor Company's 
Domestic Policy Team as a Vice President at Ford. He also led 
Public Policy at USAA as Senior Vice President, and that's 
where Dan and I became friends when he was working and leading 
that team in San Antonio. Dan has the qualifications, the 
expertise, the relationships and the gravitas that a Secretary 
of Energy needs to be effective.
    This is a critical time for American energy as this 
Committee knows well. We're currently experiencing an American 
energy renaissance with the United States having now become the 
number one producer of oil and the number one producer of 
natural gas on the planet, surpassing both Russia and Saudi 
Arabia in crude oil production. The United States has also 
become a net exporter of natural gas, a milestone not reached 
since 1957. So strong leadership at the Department of Energy is 
needed now more than ever.
    I'll say a final point. When it comes to tenacity, we want 
Cabinet Secretaries to be strong, to be principled and able to 
conquer enormous challenges. I believe Dan possesses those 
characteristics and I would point to two data points to support 
it. Number one, the nine beautiful children that Dan and 
Adrienne have.
    [Laughter.]
    They have homeschooled, which if you want to talk about a 
labor of love and passion and commitment, it is hard to think 
of anything more daunting and for that matter, any government 
bureaucracy pales compared to the joys and challenges of the 
nine beautiful kids at home. Secondly, I had the good fun and 
I'm going to out Dan for having joined me at game three of the 
World Series here in DC where Dan and I both unabashedly 
cheered for the Houston Astros.
    [Laughter.]
    We were the lone splashes of orange in a sea of red. And if 
you want to test the measure of a man, he was willing to be 
surrounded by screaming, exalted Nat's fans and happily cheered 
on the Astros. We won that game, but alas, did not win the war. 
Nonetheless, he will be a terrific Energy Secretary.
    The Chairman. Well said, Senator Cruz, thank you very much 
and thank you for joining us at the Committee.
    We will now turn to our friend and colleague from 
Louisiana, Senator Kennedy.

                STATEMENT OF HON. JOHN KENNEDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Kennedy. Thank you, Madam Chair and Ranking Member 
and thanks to all of you for taking up the nomination of 
Secretary Brouillette, who is now our Deputy Secretary. As you 
know, he operates as basically the Chief Operating Officer of 
the Department of Energy, and with your consent he will be 
elevated to the position of Secretary.
    Dan is not from Texas.
    [Laughter.]
    He is from Paincourtville, Louisiana, which, as you know, 
is near Napoleonville, Louisiana. When Dan grew up in 
Paincourtville--we both grew up in small towns--there were 211 
people in Paincourtville. Now there are 911. I grew up in a 
little town called Zachary which was slightly bigger when I 
grew up. A small town is the way I've always described it, and 
I'm so blessed to have grown up in a small town. A small town 
is a place where everybody knows whose check is good and whose 
spouse isn't.
    [Laughter.]
    Dan's a rock star as far as I'm concerned. We've seen such 
a dramatic change in energy in this world in the last 25 years, 
maybe even less. Dan has watched it. He's been part of it.
    I remember our energy policy in America used to be okay, 
we're going to buy as much oil as we can from countries that 
hate us and through those sales, we're going to give them money 
to buy weapons to try to kill us. Thankfully, the world has 
changed. We've had a revolution in fossil fuels. Our oil and 
gas industry, frankly with the Federal Government hanging all 
over its back, went out and through technology has unleashed 
enormous amounts of energy from shale.
    But we also understand, and I don't want to get in the 
debate about climate change, we also understand that glaciers 
don't, melting glaciers don't lie. And so our policy now is to 
look at alternative forms of energy--wind, solar, geothermal, 
nuclear. Dan gets all that. He gets all that, in part, through 
his experience. He and Adrienne are both veterans. Dan's a 
veteran of service in our military. He's a veteran of service 
in the state government level. He's a veteran of having served 
Congressman Billy Tauzin in the House for which Dan 
automatically has a place in heaven.
    [Laughter.]
    And he has served with distinction as Deputy Secretary. 
He's a serious man. He exercises power intelligently, not 
emotionally. He and Adrienne will make a great team, and he 
will be an extraordinary Secretary of the Department of Energy 
and this Louisianan has my wholehearted and unconditional 
support.
    Mr. Brouillette. Thank you, sir.
    The Chairman. Thank you, Senator Kennedy.
    Mr. Deputy Secretary, I think it is fine to have two 
different states vying for your love and your attention. You 
clearly have left impressions----
    Senator Cruz. Alaska's not going to claim him now, is it?
    [Laughter.]
    The Chairman. Ah, I was going to include that, in part, as 
part of my remarks. We won't claim him, but we will certainly 
adopt him.
    So gentlemen, both of you, thank you. We know that you have 
tight schedules here this morning, but thank you for joining us 
as part of the Committee and your welcoming introductions.
    I am going to make some brief remarks, turn to Senator 
Manchin, and then we will move to swearing you in, Mr. 
Brouillette, and we will then hear your testimony which will 
hopefully include more formal introductions of your family. We 
certainly welcome all of them. It truly is a testament to you 
and your wife, and to have them with you this morning is a real 
treat.
    I, for one, am very glad that you are here before us as the 
President's nominee to be the Secretary of Energy. I think we 
have seen during your time as Deputy Secretary, you have really 
helped to create a solid agenda for the Department that has 
been focused on the science and the technology. You have 
brought us into the world of quantum and artificial 
intelligence. I think you have been very responsive to the 
Committee. You have been available to speak with members when 
you have been asked to do so. My sense is that you have made a 
good impression on just about everyone.
    So when it was indicated that Secretary Perry was going to 
be stepping down, you, to me, were the obvious choice to 
replace Secretary Perry in what he refers to as the coolest job 
he has ever had and I think you share that enthusiasm for this 
important space.
    I do appreciate your willingness to travel to, not only 
places like Alaska, but to travel around to many of the states, 
certainly to see the opportunities that a state like Alaska has 
and see them firsthand. The first trip that you took following 
your confirmation as Deputy Secretary was to join me in Alaska. 
We took him out to the Chena Renewable Energy Fair where he was 
able to see much of what you saw, Senator Manchin, and learn 
about the potential for low temperature geothermal.
    Senator Manchin. Like the blue lagoon?
    The Chairman. No, no, no, we didn't do--that is not called 
the blue lagoon.
    [Laughter.]
    The geothermal hot springs there at Chena, but also great 
things like the Lettuce Grow Tower, just further evidence that 
we can do more when it comes to food security.
    The Deputy Secretary and I share Lettuce Grow Towers--I, in 
my office, and I understand you, in your garage. So it all 
comes together, but you came back. You came back this past 
August. We visited Kwigillingok and Kongiganak--small, very 
remote villages in Southwestern Alaska. You were in Anchorage 
at CITC's Fab Lab. We got to get up very high looking out to 
the volcano that we were observing. So you have been on some 
pretty important and, I think, impressive field trips in my 
state. You know that I am going to invite you back because 
there is an awful lot more to be seen.
    Broadening my focus a little bit and recognizing your role 
here, should we confirm you, as I expect we will, to be at the 
helm of the Department of Energy, this is an exciting time. 
This country is a leading energy producer, as Senator Cruz has 
mentioned, and really a disrupter of world markets. We are now 
sending oil and LNG around the world. We are providing our 
friends and allies with energy while creating jobs and 
prosperity here at home. We are on the cutting edge of a number 
of exciting technologies like advanced nuclear energy, carbon 
capture and energy storage.
    And through the Department's work, we have the opportunity 
to really push out the boundaries of scientific discovery and 
build on our status as a global leader in the field of energy. 
We look to all the promise that our 17 national labs provide 
and the committed professionals that are there who really work 
in pursuit of these new discoveries. Really one of our nation's 
biggest assets, these national labs are. Our research 
capabilities continue to be the envy of the world, and our 
challenge now is to ensure that it remains so.
    It is no secret that the President's budget request for the 
Department of Energy has fallen short of the expectations that 
we have articulated here on this Committee. Congress has 
rejected the Administration's funding levels each year, 
instead, providing steady increases for widely-supported 
programs like ARPA-E. So anticipating that you will be 
confirmed, I will ask that you continue to fight for sufficient 
funding for programs that pursue these technologies to make 
energy cleaner, more reliable, more efficient and certainly 
more affordable because that is what, I think, it is going to 
take to sustain this energy dominance over the long-term.
    I am going to turn now to my colleague, Senator Manchin, 
for his comments. We'll have an opportunity to ask questions 
throughout the morning. If members have additional questions 
after this first round, we will ask that they be submitted by 
the close of business today.
    Senator Manchin, I turn to you.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman, for holding 
this hearing on Mr. Brouillette's nomination to head the 
Department of Energy. I want to welcome his family, his amazing 
wife, Adrienne, and the nine beautiful children that you have, 
Dan. You should be very proud. I know you both are and you also 
are willing to serve at this important post for our great 
nation. I enjoyed our discussion earlier this week and look 
forward to continuing it today.
    I also want to welcome with us today Dr. Brian Anderson 
from Morgantown, West Virginia, Director of NETL. You have 
visited Morgantown, and we want you to come back many more 
times. NETL does a lot of good things. We want to be the cyber 
headquarters for you, and I think we can do a tremendous job. 
So we are going to put that little plug in, but I thank you so 
much for that and your attention toward the importance of NETL.
    The Secretary's job is an enormous one, as has been 
mentioned and talked about, and I think all of us know the 
Secretary of Energy is responsible for leading the world's 
premier science and technology enterprise. We count on the 
Department of Energy and its 17 national laboratories for the 
cutting-edge research and technological breakthroughs needed to 
meet our nation's energy needs and keep us strong and secure. 
At the same time, the Secretary must oversee the nation's 
nuclear weapons stockpile, which a lot of people don't 
realize--that is the responsibility of the Department of Energy 
and Secretary of Energy--our entire weapon stockpile. DOE makes 
the fuel that propels the Nuclear Navy, which we have been 
doing successfully for the greatest defense program in the 
world, and it guards against nuclear proliferation.
    The Secretary is also responsible for one of the world's 
toughest environmental cleanups at Hanford and other Cold War 
nuclear weapon sites and for overseeing the four power 
marketing administrations that supply electricity produced at 
federal dams to customers in 34 states. If that is not enough, 
the Secretary is responsible for managing an annual budget of 
close to $30 billion and for protecting the nation's energy 
sector from cyberattack, which is under attack every day. And I 
say, this is an enormous job.
    But I thank Mr. Brouillette and I know he is up to the 
task. I thank him for stepping forward. As a father of nine, he 
is bound to be a skilled manager.
    [Laughter.]
    Of course, I give Adrienne a little bit more credit for 
that.
    He has a long history with energy issues at the Department 
of Energy and, very importantly, he has visited NETL in 
Morgantown, as I have said before, on more than one occasion. 
He has served as a Staff Director at the House Energy and 
Commerce Committee. At the Department he served as an Assistant 
Secretary of Energy during the Bush Administration and, of 
course, as a Deputy Secretary for the past two years. He knows 
the Department, he knows Congress, and he knows the energy 
issues facing our nation. He has also demonstrated his 
managerial skills as a Vice President at Ford Motor Company and 
as a Senior Vice President of USAA, the insurance and financial 
services giant that serves members of our military and their 
families.
    This Committee has favorably reported and the Senate has 
confirmed Dan twice before. Today I will be following up on our 
conversations from earlier this week with a few questions about 
energy security and your commitment to energy innovation at our 
national labs.
    Overall, I think the President has chosen wisely in 
nominating you, Dan, for this job and I am pleased to support 
your nomination.
    So, again, Madam Chairman, I want to thank you for holding 
this hearing today and I want to thank you, Dan and your entire 
family, for being with us this morning and for your willingness 
to serve. Thank you.
    The Chairman. Thank you, Senator Manchin.
    Mr. Deputy Secretary, the rules of the Committee which 
apply to all nominees require that they be sworn in connection 
with their testimony. So I would ask that you please rise and 
raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give the Senate Committee on Energy and Natural Resources shall 
be the truth, the whole truth and nothing but the truth?
    Mr. Brouillette. Yes.
    The Chairman. You may be seated.
    Before you begin your statement, I am going to ask you 
three questions that we pose to each nominee that comes before 
the Committee.
    Will you be available to appear before this Committee and 
other Congressional committees to represent Departmental 
positions and respond to issues of concern to the Congress?
    Mr. Brouillette. Yes, I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Mr. Brouillette. No.
    The Chairman. Are you involved or do you have any assets 
held in blind trusts?
    Mr. Brouillette. I do not.
    The Chairman. Mr. Brouillette, you may proceed. Again, we 
would encourage your introduction of family and welcome them to 
the Committee, but we look forward to your statement this 
morning and an opportunity to engage in some questions.

             STATEMENT OF HON. DAN R. BROUILLETTE, 
              NOMINATED TO BE SECRETARY OF ENERGY

    Mr. Brouillette. Thank you, Chairman Murkowski, for that 
kind introduction. On a stressful day like today, I am not sure 
I can remember all of their names.
    [Laughter.]
    But I will do my best. If I turn around, starting from this 
side, my daughter, Danielle, Jackie, Catherine, Julia, Addie, 
my lovely wife, Adrienne, my youngest son, Christopher, Joelle, 
Sam, and my oldest, Stephen. So that's the entire crew.
    The Chairman. Welcome.
    Mr. Brouillette. Thank you.
    The Chairman. Welcome to the entire crew and thank you for 
being such great backup for your dad.
    Mr. Brouillette. Well, they are fantastic.
    Chairman Murkowski and Ranking Member Manchin, members of 
the Committee and staff, I've known you for a long time. Thank 
you for the opportunity to appear before you as President 
Trump's nominee to be Secretary of Energy. I'd like to thank 
each of you for being such strong partners for the U.S. 
Department of Energy through the years and for your time today, 
and I look forward to continuing to work with each of you 
should I be confirmed by the Senate.
    I'd also like to thank President Trump for his trust in me 
and for Secretary Perry for his outstanding leadership of this 
Department over the past three years.
    The members of the Committee, as Deputy Secretary I am 
proud to have been a small part of the incredible success that 
we have seen in American energy. DOE and its 17 national 
laboratories play a central role in advancing America's 
leadership in scientific research and development, energy 
technology and nuclear security. This enterprise is powered by 
our nation's most talented and dedicated innovators including 
117 Nobel laureates associated with our Department.
    Seated behind me are some of the directors from our 
national laboratories who I'd like to recognize for their 
incredible leadership. We have with us today, Dr. Tom Zacharia 
of Oak Ridge, Dr. Mark Peters of INL, Dr. Brian Anderson of 
NETL, Dr. Martin Keller of NREL. When this team entered the 
Department of Energy, America ranked number three in 
supercomputing behind China and Switzerland. We knew America 
could do better so we did better. We built the world's two 
fastest supercomputers, Summit at Oak Ridge and Sierra at 
Lawrence Livermore. Now America is back at number one.
    But there's still much more to be accomplished. We're 
committed to building three new exascale computing machines and 
following the leadership of this Committee's development of the 
National Quantum Initiative, we're evolving quantum science 
capabilities. Our researchers are tackling the world's greatest 
energy and scientific questions and constructing the next 
generation of world class science facilities that are the 
incubators for the world's cutting-edge R&D. That's the power 
of discovery.
    Through the power of innovation, the United States is 
leading the world in both energy production and the reduction 
of emissions. America has become the world's top producer of 
oil and natural gas and soon we will become a net energy 
exporter. Our energy story, however, also includes historic 
growth in renewable energy. Today America is the second highest 
generator of wind and solar energy in the world. We're also 
reviving nuclear energy by developing advanced technologies 
such as small modular reactors and advanced reactors.
    We're also expanding the use of clean energy. Since 2005, 
national greenhouse gases have fallen by 13 percent and power 
sector emissions have fallen by almost 28 percent according to 
the EPA. That's something that all Americans can be proud of. 
And as we pursue this all-of-the-above energy strategy, we must 
also continue to protect our energy infrastructure. So we've 
developed the North American Energy Resilience model. It's a 
first-of-a-kind tool that will allow us to better understand 
infrastructure risks and improve system resilience in real 
time.
    While we are developing and protecting our energy 
infrastructure, we're also making sustained progress in 
cleaning up the nation's legacy of nuclear waste. I'm proud to 
say that the last radioactive waste has been removed from 
Hanford's K-Basin and stored safely away from the Columbia 
River and we have with us today Brian Vance, from Hanford, who 
is in charge of those operations.
    While we're developing, I'm sorry, as we honor the 
obligations of yesterday however, we must prepare for the 
threats of tomorrow and the strengths of our nuclear security. 
We're making significant progress modernizing our nuclear 
weapons enterprise. While this progress is substantial, DOE is 
poised to play an even larger role in developing an even 
brighter future for America. I commit to each of you today that 
if I am fortunate enough to be confirmed, I will work earnestly 
with each of you to address the challenges and the 
opportunities of today and tomorrow.
    Chairman Murkowski, Ranking Member Manchin, thank you again 
for the opportunity to be here. I ask the Committee for your 
favorable consideration of the President's nomination, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Brouillette follows:]
    [GRAPHIC] [TIFF OMITTED] T9872.001
    
    [GRAPHIC] [TIFF OMITTED] T9872.002
    
    [GRAPHIC] [TIFF OMITTED] T9872.003
    
    The Chairman. Thank you so very much for the statement and 
let us begin with our questions.
    I am known, whether it is on this Committee or on other 
committees on which I serve, to ask nominees about their views, 
their level of engagement on Arctic issues. The United States 
is an Arctic nation, and I believe we have a significant 
leadership role to play.
    And as I ask this question, I also want to thank you 
because it is, it has been under your direction and your 
leadership at the Department of Energy that we have seen a 
stepped-up interest from DOE toward Arctic-related interests. 
The presence that we had in Reykjavik just six weeks ago at the 
Arctic Circle Assembly, the number of national lab directors 
that were part of that conference was noteworthy and generated 
a buzz and a level of excitement about the role that the United 
States is playing in this sector.
    So I would ask for your comments on what you believe the 
level of engagement should be on these Arctic-related issues 
and as you speak to that, as I mentioned in my comments, you 
have had an opportunity to come to Alaska to see some of the 
benefits that come from an energy-producing state, not only 
with our oil, our gas, our fossil resources, but what we host 
with microgrids, with the wind that we saw in Kongiganak and 
Kwigillingok, the solar, and everything that we are doing to 
reduce our reliance on diesel-powered generation.
    You saw the efforts of the Cold Climate Housing Research 
Center and efforts to bring about greater efficiencies. And as 
you know, I have been working to push for greater coordinated 
research in the state, but more broadly to the Arctic in 
general. I have been advocating for the Department to 
reconstitute the Arctic Energy Office. So, within this context 
of Arctic and the role of the Department of Energy, if you 
could address that, please.
    Mr. Brouillette. Sure, Madam Chairman, thank you.
    To answer your question very straightforwardly and 
succinctly, we need to do more, not less. So you can expect 
from the Department of Energy, should I be confirmed as 
Secretary, an increased engagement, not only in Alaska, but in 
the Arctic region generally.
    Some of the things that we have seen over the years--and we 
all have different perspectives. I know some of you serve on 
the Armed Services Committee, and the Arctic means a strategic 
advantage to those who are focused on those issues. For those 
of us in the energy business and the energy industry, if you 
will, energy policy industry, we see the Arctic as a, not only 
a resource for things like critical minerals and potentially 
environmentally sensitive energy development, we see it for the 
purpose of not just extracting, you know, oil and gas, I think 
it's expanded beyond that, much, much further than we could've 
imagined.
    And what I mean by that is that, you know, as we move to a 
world of more and more renewable energy, our ability to develop 
battery storage becomes more and more critical and the minerals 
that we currently receive today or we rely upon, I should say, 
for the development of those types of batteries, we become 
dependent upon nation-states who, quite candidly, do not have 
our interests at heart. And the Arctic is potentially a 
resource for those types of minerals.
    I will tell you, from where I sit at the U.S. Department of 
Energy, what you can expect from us is attendance at events 
like the upcoming 2020 Geothermal Congress in Iceland. We will 
have a strong and robust presence there. DOE will also help 
lead, and this may sound a little bit counterintuitive for 
those who are not familiar with Iceland or, you know, places in 
the Arctic, we will lead a supercomputing congress in Iceland 
in 2020. So we're very excited about that. We think that's 
important. We think that outreach is important. Again, for 
strategic reasons, but also for our energy development and our 
energy security here in the United States.
    The Chairman. Well, I thank you for that and I am sure that 
we can anticipate further engagement and really enhanced 
engagement because I should know, it is not just energy, it is 
commerce, it is environment, it is the impact that we are 
seeing from a rapidly changing part of the globe.
    Very quickly here on the Office of Indian Energy (OIE). It 
is one of the smaller offices there at DOE, but it certainly 
has an outsize importance in my state. OIE is a key partner for 
Native communities that really need to work to reduce their 
high energy costs, and right now we have one DOE employee that 
is there in the state. Years ago we got a commitment to 
increase that. I know that you have seen this, but I am, once 
again, seeking a commitment from you to recognize the potential 
that we have within OIE and make sure that we are staffing 
appropriately.
    Mr. Brouillette. Madam Chairman, I'll give you two 
commitments. One, we're going to expand the Office of Indian 
Energy. We are currently in the market to hire two people 
there. So that will be expanded. We will also open an Arctic 
Office that will be fully staffed by the end of 2020. So I give 
you those two firm commitments. I hope it demonstrates our 
interest in and the strategic importance of the Arctic to the 
U.S. Department of Energy.
    The Chairman. The Arctic Energy Office, we think, is going 
to be key, again, not only for the U.S. Arctic but, I think, 
the Arctic as a whole. So we thank you for that.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Mr. Brouillette, the Secretary of Energy has a statutory 
and legitimate role in establishing and implementing policies 
relating to international energy issues. In that role, 
Secretary Perry helped broker a deal to sell U.S. coal to 
Ukraine and U.S. liquified natural gas as an alternative to 
Ukraine's dependence on Russian gas. Unfortunately those 
efforts have landed him in the middle of the House of 
Representatives' investigation into the President's involvement 
with Ukraine.
    Can you state for the record, as Secretary Perry's Deputy, 
what role you have played in any of this or if you have any 
knowledge of this?
    Mr. Brouillette. So, I think you have, perhaps, two 
separate questions there, but I will tell you that Secretary 
Perry and I have been deeply involved in the energy security, 
not only in the United States, but of our European allies. And 
in that context and in that position as Deputy Secretary, I 
have helped to organize technical briefings for him as well as 
for myself. We have focused on issues like the Nordstream 
pipeline which is a Russian pipeline that is being built down 
into the Northern part of Germany.
    To counter those efforts and to lessen the dependence of 
states like Germany, European states like Germany on Russian 
gas, we have worked very, very hard to offer alternatives. Part 
of that has been the construction of LNG export facilities here 
in the United States. But it's also working with countries like 
Germany, Croatia, Serbia, others in the proximity of Ukraine to 
develop LNG import facilities. We've been very, very engaged 
with them.
    With regard to the country of Ukraine, we have worked with 
them at their request to help them to interconnect their 
electricity grid, their pipeline grid. And in order to do that, 
they need to meet the requirements of what is known as the 
third energy package in the EU. So they have sought our 
technical expertise to do those things.
    I have not been involved in any of the conversations that 
are related to the House's inquiry. Those are not matters that 
would typically fall to the Chief Operating Officer of the 
Department. My role within the Department is to run the day-to-
day operations. And as you mentioned earlier, it is a large 
organization. It is approaching $40 billion in budget and well 
over 100,000 federal employees and contractors. So that, along 
with nine kids, keeps me pretty busy.
    Senator Manchin. Thank you, sir.
    Also, I think you have heard us talk about the Appalachian 
Storage Hub before.
    Mr. Brouillette. Yes, sir.
    Senator Manchin. Secretary Perry and I have a good 
relationship and a long relationship being former governors, 
but Rick and I talked and he said, ``Joe, I've seen the model 
of a Class 5 hurricane coming up the Houston Ship Channel, what 
it'll do to cripple us energy-wise.'' Do you have the same 
feeling of that, the commitment toward doing something for a 
backup energy supply and also reinvigorating the manufacturing 
base that we could have in the north or mid-Atlantic states?
    Mr. Brouillette. Sure. I do, sir.
    You know, having grown up in Louisiana and survived a few 
hurricanes, if you will, I know what they look like and what 
they feel like and it can be a very disturbing experience to 
have to go through one. And it pains me, as I told you in your 
office, privately, to have to suggest, perhaps against the 
interest of Louisiana, that we should have an alternative. We 
should have some redundancy in our storage capacity and 
systems.
    And in that regard, I think, Appalachia presents the best 
opportunity in America to do exactly that. Not only is the area 
rich in natural resources, you know, wet gas, dry gas, you name 
it, the labor talent there is incredible. It reminds me much of 
the places that I grew up in Louisiana. People are, they're 
hardworking people. They train themselves well and they show up 
every day on time and that's very, very important for these 
types of things because they are related to our national 
security.
    Senator Manchin. I know you touched briefly with the 
Chairman here concerning our rare earth minerals and the lack 
of our being able to sustain it within this country. And now 
with the countries that do, that we rely on, basically, for 
those rare earth minerals, they are not always in our best 
interest and they could hold us in a hostage situation. It 
would be detrimental to us.
    There is an awful lot going on in that in research as you 
all have been involved with, especially the last grant that we 
did with WVU and NETL----
    Mr. Brouillette. That's correct.
    Senator Manchin. ----on coal refuse as far as our acid 
drainage and things of this sort, we find that there is an 
awful lot. Do you think that that can be increased to 
commercial, to where we can get enough minerals or basically be 
able to sustain the need we have in case of a critical 
shortage?
    Mr. Brouillette. I do and I think that's part of the 
important work that's being done in Morgantown at NETL. It's to 
address those types of opportunities within the coal industry, 
but other industries as well. I think to the extent that we can 
continue the R&D that's currently being done, we can make these 
types of technologies, not only, you know, commercially viable, 
but we can make them economically viable in large scale. And I 
think that's what we need to focus on at the Department and 
that's going to be my mission as Secretary, should I be 
confirmed by the U.S. Senate.
    I think there's a lot of opportunity for coal. There's a 
lot of opportunity for other parts of the country as well.
    Senator Manchin. Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman, for 
holding this hearing. I had an opportunity to meet with the 
nominee last week. I am very impressed with his knowledge, his 
experience and his commitment to advancing American energy and 
technology. I think he would make a superb Secretary of Energy.
    The Department of Energy has done a great job, I believe, 
investing in research to advance domestic energy. What starts 
here in the U.S. can change the world. We are developing energy 
technologies here at home and then pushing to get these 
technologies to the deployment stage. Countries around the 
world are doing the same.
    So, if confirmed, how will you coordinate research efforts 
to ensure the Department's efforts are not duplicative or 
redundant doing what other people are doing?
    Mr. Brouillette. That's always a challenge, Senator, to be 
honest. These departments are very, very big. But I will tell 
you that some of the unique opportunities that we have are, I 
think, unique to the Department of Energy. So you're probably 
familiar with the Wyoming Test Center. We do a lot of work out 
that way.
    I think Wyoming, in particular, presents a unique 
opportunity for us to test technologies like carbon capture. 
And I'm very excited about the work that I see within Wyoming, 
what I see in DOE writ large.
    Senator Barrasso. Well, I appreciate that. There is great 
work being done through the University of Wyoming----
    Mr. Brouillette. Yes.
    Senator Barrasso. ----our School of Energy Resources, the 
Integrated Test Center--I am fully onboard. And, you know, when 
we look at what is happening worldwide, we need to get these 
technologies developed, then deployed. So I look at China and 
India. They are going to continue to grow their economies. They 
are going to continue to release carbon dioxide as they build 
out industrial and transportation sectors.
    In spite of what some may believe, the United States cannot 
tackle climate change alone. We need to work with other 
countries to find real solutions to manage carbon dioxide 
without killing our economy and killing jobs.
    Once we find that commercial carbon capture solution, how 
can we deploy the technology to these other countries that do 
have growing economies like China and India who seem to be the 
ones that continue to be the greatest emitters worldwide?
    Mr. Brouillette. Sure. So one of the things we've done, 
Senator, at the U.S. Department of Energy is create a Chief 
Commercialization Officer for exactly that purpose. Our 
national labs produce an enormous amount of technology and 
research and products, if you will. It's our job, I think, as 
the purveyors and the, you know, the owners, if you will, of 
that taxpayer-funded technology to ensure that it gets 
commercialized, that we take it off the shelf and we put it 
into the market, we allow the private sector to run with it, to 
commercialize it and to have it spread around the world 
because, as you know, sir, and as we talked about, the use of 
some of these fossil fuels will continue well into the 2040, 
2050 timeframe.
    Our Energy Information Administration, the EIA, as it's 
known within the Department of Energy, projects that fossil 
fuels are going to power a large portion of the world's energy 
needs for the next 40 to 50 years. And if that's the case, then 
I think we have an obligation, if we care about the climate, if 
we care about minimizing the carbon impact of the use of these 
fossil fuels, we have to get these technologies off of the 
shelf and into the market.
    Senator Barrasso. And then with nuclear energy being a 
source of energy with no carbon footprint, you know, President 
Trump has established a Nuclear Fuel Working Group to make 
recommendations to enable American uranium production to 
continue. I encourage the working group to swiftly make its 
recommendations to the President to provide immediate relief 
for American uranium producers. Do you support actions to 
preserve and strengthen our own American uranium production?
    Mr. Brouillette. I do. I do.
    The working group is very close to its final product. I'm 
happy to report to you that it's in the final stages of the 
interagency working, the interagency process within the 
Executive Branch. It will look at the entirety of the fuel 
cycle for nuclear power from enrichment, the front end of the 
cycle all the way to the back end of the cycle. So we're proud 
of that work, and we hope to share it with you very, very 
shortly.
    Senator Barrasso. Great.
    Then the Department of Energy does have an Office of 
Cybersecurity, Energy Security, and Emergency Response. It 
addresses energy-related emergencies, disruptions. An energy 
disruption, as we all know, could devastate rural communities 
throughout the country and urban areas, but specifically for 
rural communities. If confirmed, how will you work to ensure 
that our rural communities are prepared for cyberattacks and 
have the resiliency and the robustness that is necessary to 
protect ourselves?
    Mr. Brouillette. So, sir, we have what's called, inside of 
the Department, the Electricity Subsector Coordinating Council. 
It's made up of CEOs of, primarily, larger utilities. We meet 
from time to time to talk about issues like cybersecurity. Part 
of that conversation are tools that are available to almost all 
utilities. We have a tool--we have a lot of acronyms in the 
government as you all know, sir--we call it CRISP. It is for 
reporting cyber incidents, you know, in these types of--in 
utilities.
    We have heard from smaller, rural municipal utilities, in 
particular, that the product is too expensive. So we're making 
it cheaper. And that's one of the ways that, I think, if we can 
make this product, the reporting, you know, the product called 
CRISP, if we can make that available to these smaller 
utilities, municipals in particular, then we can share with 
them, not only the data that we have at DOE, but in certain 
cases, we can begin to share the intelligence that we see from 
places that are nation-state actors who want to violate our 
electricity grid.
    And we've done a pretty good job over the last two years of 
educating smaller utilities and letting them know of the risks 
that they face, not only for their utility, but to the extent 
that they're connected with larger utilities, it creates a 
door. So they've been very, very sensitive and very responsive 
to our efforts and we hope to continue them in the course of 
the next two to three years.
    Senator Barrasso. Thank you, Mr. Secretary. Thank you, 
Madam Chairman.
    The Chairman. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Mr. Brouillette, it has been reported that while you were 
Deputy Secretary of Energy, the Secretary communicated with 
high-level Ukrainian officials and at the President's 
direction, with Rudy Giuliani, his personal attorney, about 
Ukraine-related matters. The press reports also indicate that 
Secretary Perry pushed the Ukrainian government to make changes 
to the Board of Naftogaz, a Ukrainian, state-owned, natural gas 
company.
    And the reason I am asking the question is these efforts 
echo changes to the Board that were sought by two of Mr. 
Giuliani's now indicted associates, Lev Parnas and Igor Fruman. 
So just a couple of questions here. Were you aware of any 
contacts between Secretary Perry or any other senior DOE 
officials and representatives of Naftogaz?
    Mr. Brouillette. I am aware that the Secretary met on 
occasion with individuals who were asking for assistance with 
the restructuring, if you will, or reorganization, of the 
state-owned enterprise. Naftogaz is a vertically integrated 
company. In order for them to interconnect with the EU, we had 
conversations about their structure.
    Senator Wyden. When you say ``we'', were you involved in 
conversations with Naftogaz?
    Mr. Brouillette. No, sir, I was not. No, sir, no, I was 
not. I was not. The ``we'' is the collective we at the 
Department of Energy.
    Senator Wyden. I gotcha.
    Mr. Brouillette. It's not me and the Secretary.
    But no, I am not aware of any conversation that he had with 
either Mr. Giuliani or others within the Ukraine government 
about the Board or the Advisory Board that's associated with 
Naftogaz.
    Senator Wyden. So I am still a little bit unclear. Are you 
aware of the nature of any communications with Naftogaz because 
initially you said, you knew there were communications? So, 
being the Deputy, I would be inclined to say somebody like 
yourself, who is knowledgeable, I have watched you over the 
years, would know a little bit about the nature of the 
conversations.
    Mr. Brouillette. Sure.
    Senator Wyden. Tell me a little more about that.
    Mr. Brouillette. No, I am not aware of the conversations 
that Secretary Perry had or did not have with Naftogaz 
directly. I'm just, I wasn't party to that. I didn't have any 
knowledge of that.
    I am aware that the, you know, within the Department there 
are technical experts that from time to time will interact with 
colleagues about these types of matters, but I'm not aware of 
any conversations between the Secretary and anyone at Naftogaz.
    Senator Wyden. And are you aware of any conversations Mr. 
Giuliani has had with the Department on this?
    Mr. Brouillette. I am not.
    Senator Wyden. And you have not had any contact?
    Mr. Brouillette. I have not.
    Senator Wyden. Okay.
    The only other thing I wanted to touch on is yesterday in 
the office, and I appreciated the visit, you made it clear to 
me that because of Bonneville Power and their important role in 
making sure there was affordable energy in North America, you 
would keep the idea of privatizing Bonneville Power off the 
table. I just wanted to let you know I appreciate it.
    If you want to add anything to what you told me yesterday 
in the office, I appreciated the fact that you responded 
directly to the question. Obviously, privatizing Bonneville 
Power would hit the Pacific Northwest like a wrecking ball and 
you answered the question forthrightly and I appreciate it.
    I also want to hold the record open with respect to the 
questions I have asked dealing with Secretary Perry and other 
officials at the Department. I know our people indicated that 
we were going to ask some of those questions, but certainly I 
want to give you the opportunity, if there is additional 
supplemental material on that, as I say, I was particularly 
concerned because these press reports did come up at a time 
when these two indicted associates of Mr. Giuliani were 
apparently seeking changes to the Board. There seem to be some 
conversations that took place between the Department and 
Naftogaz. I will hold the record open if you would like to give 
me additional information.
    Mr. Brouillette. Yes, sir----
    Senator Wyden. Okay.
    Madam Secretary, Madam Chair, thank you.
    The Chairman. Thank you, Senator Wyden.
    Senator Hoeven.
    Senator Hoeven. Secretary Brouillette, great to see you 
here and your family is unbelievable, so----
    Mr. Brouillette. Thank you, sir.
    Senator Hoeven. ----just great, and it is really fun to 
meet them.
    Thanks for coming by the office. You have a great track 
record over there at DOE. We appreciate your service and the 
service of your family very much.
    In North Dakota we produce 1.5 million barrels of oil a 
day, and that is second only to one of your states, Texas. We 
also produce more than three million cubic feet of gas a day. 
We don't even drill for gas. It just comes up with the oil.
    Mr. Brouillette. Amazing.
    Senator Hoeven. It is essentially free in North Dakota, 
because we have to get it to markets. Where I am going with 
this is, we need infrastructure. I mean, when I started as 
governor up there in 2000, we produced less than 100,000 
barrels a day. Now, with hydraulic fracturing, like I said, 1.5 
million a day, going up.
    And we have--we need pipelines. We need LNG facilities. How 
do we get more infrastructure to get this to markets? I mean, 
the Pacific Northwest, the Orient, there is just a lot of 
places that really want this energy, but we need to get it 
there. We need infrastructure. How can you help us?
    Mr. Brouillette. Well, I think one of the ways we can help 
is to work with our regulators, both at the state and federal 
level, to give them some assistance as to the most efficient 
ways to place infrastructure.
    We all support the development of additional pipeline 
capacity in the United States. We have worked very aggressively 
with our partners in places like the Department of Energy--
Department of the Interior, at the Department of 
Transportation, to let them know what are the most critical 
needs? Where are the most critical concerns that we have as the 
Department of Energy for the placement of infrastructure?
    And what do I mean by that is, you know, as we talk about 
things like cybersecurity, for instance, if you think about 
what the world was, you know, say 10 years ago, 15 years ago, 
20 years ago, where, you know, a pipeline, a natural gas 
pipeline may have served, you know two, perhaps three, electric 
generation facilities. Today it might serve six or seven, 
perhaps eight.
    And if we can expand that, it creates quite a risk in the 
electric generation world, if we can expand that and have a, 
you know, a number of pipelines serving those seven or eight 
electric generation facilities, we not only allow in market, 
you know, the gas to get to market, we reduce our risk, we 
reduce our cybersecurity risk, in particular, with that type of 
development.
    So sharing that insight, sharing the work of our national 
laboratories, with the regulators, will perhaps ease some of 
the permitting, you know, that has to happen as a result of 
these developments. So that's our contribution to this 
particular problem. We want to continue that.
    Senator Hoeven. In the coal world, you know, we are all 
working to find ways to capture carbon and sequester it.
    Mr. Brouillette. Right.
    Senator Hoeven. And in our part of the world, as well as 
Texas, Louisiana and other places, that is both for tertiary 
oil recovery as well as just geologic storage. It is 
technically feasible, we have to make it commercially viable. 
So we need your help with CarbonSAFE. We have our Project 
Tundra, Allam Cycle----
    Mr. Brouillette. Sure.
    Senator Hoeven. First question. Do you want to come up and 
see what we're doing up there?
    Mr. Brouillette. I would love it.
    Senator Hoeven. Yes, because we would appreciate you seeing 
it. It is amazing stuff. Great partnership--federal, state and 
the private sector--leading technology. University of North 
Dakota, EERC, PCOR--projects, I believe, that you support. 
Correct?
    Mr. Brouillette. Sure.
    Senator Hoeven. So we need both to keep CarbonSAFE moving. 
You are committed to doing that?
    Mr. Brouillette. Yes, we are.
    Senator Hoeven. And we need to work with the tax credits, 
the 45Q and others. I spoke with IRS Commissioner Rettig 
yesterday. I think they are committed to keeping this moving. 
We have to have regulatory certainty. You are committed to 
helping with those things as well?
    Mr. Brouillette. That's correct.
    Secretary Perry just sent a letter to the IRS, just 
recently as a matter of fact. We are urging them to complete 
their work on finalizing this 45Q.
    Senator Hoeven. Right, because there is a scientific aspect 
to this. You guys, right?
    Mr. Brouillette. That's right. And they have sought our 
help as well and we have provided it. I harken back to the 
words of folks like Dr. Fatih Birol at the International Energy 
Agency in Paris. He called this a game changer. He called 45Q a 
game changer.
    Senator Hoeven. It is.
    Mr. Brouillette. And we feel strongly that it is as well. 
So we're going to continue to work with the IRS to finalize 
this rule. We're also going to work within the Department to 
advance the technology so that it becomes more efficient and 
cheaper. That's what we really need to do.
    Senator Hoeven. That is right on. It is a game changer. We 
make this work, we are going to be able to capture 
CO<INF>2</INF> on things like coal-fired electric and others. 
That is not just good, that is just something that is going to 
happen in the United States, that is going to happen beyond our 
borders.
    Mr. Brouillette. Around the world.
    Senator Hoeven. It is a big deal.
    Mr. Brouillette. Around the world.
    Senator Hoeven. And of course, you are right there, point 
on it.
    The last question I had for you is regarding our national 
nuclear labs and making sure that we continue to advance that 
work on the new plutonium pits and the other things that our 
military needs to upgrade our nuclear capabilities whether it 
is the LRSO, replacing the ALCMs, whether it is the ICBM 
Minuteman update, all those kinds of things. Do I have your 
commitment to doing that?
    Mr. Brouillette. We are absolutely committed to that. The 
Nuclear Posture Review requires that we make 80 pits per year, 
30 pits per year by 2026. The NNSA, which is a part of the DOE, 
is very much committed to that. We're working closely with 
Senator Heinrich and others about how to do that and where to 
do that. We have an initial plan put together, but we are 
firmly committed to producing what the Defense Department needs 
with regard to these pits.
    Senator Hoeven. Alright, I am on Defense Approps, so we 
have to sync up what we are doing on Defense Approps with what 
you are doing at the nuclear labs so it all comes together on 
schedule.
    Mr. Brouillette. Yes, sir.
    Senator Hoeven. Again, thank you. We really appreciate your 
willingness to serve.
    Mr. Brouillette. Thank you, Senator.
    The Chairman. Thank you, Senator Hoeven.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair, and welcome, Mr. 
Brouillette. I appreciate you sitting down with me yesterday.
    Mr. Brouillette. Thank you.
    Senator Heinrich. And we have had a chance to get to know 
each other over the years a little bit. I know you have been 
out to Sandia and Los Alamos in your current capacity. I just 
wanted to start by extending an invitation as well to the Waste 
Isolation Pilot Plant.
    Mr. Brouillette. Accepted.
    Senator Heinrich. It is one of a kind, and I think it is 
very helpful to actually get down inside that facility to 
understand the role that it plays, obviously. So I appreciate 
you being willing to do that.
    I want to follow up with a similar question to Senator 
Hoeven's but on the transmission side of infrastructure. We 
have got to do a better job in this country. Whole books have 
been written about how hard it is to develop interstate 
transmission right now. And if we are going to marry up some of 
the best, cheap, clean, renewable generation in the country 
with where the demand is, we have to be able to build 
transmission. We have, literally, multiple billions of dollars 
worth of wind that would be developed tomorrow in New Mexico if 
we had a way to get it to market.
    What is the Department's role in helping to facilitate 
transmission and its role, not just in clean generation, but 
also in resiliency and other issues that you have brought up 
today?
    Mr. Brouillette. So, one of the, I mentioned in my opening 
testimony, or opening statement, I should say, we've developed 
a North American Resiliency Model. As part of that effort, 
we've also identified critical infrastructure throughout the 
United States. And a large portion of that is transmission 
infrastructure.
    What we're trying to identify is what needs to be served in 
the event of a catastrophic event, what needs to be served in 
our view, and it would obviously be reviewed by the Congress 
and others, first, second, third, fourth and fifth. I mean, 
what is it that we need to do for public safety? What is it 
that we need to do to turn the lights on quickly so that people 
can begin whatever they need to do, if it's, you know, recovery 
from a catastrophic event?
    We also want to maintain, you know, some level of 
resiliency for all of our military installations as well. So 
that's part of the calculation that we're doing.
    That effort is beginning to identify critical loads all 
throughout the country of huge transmission needs that we have. 
So we would support, I know that you're interested in this, and 
I think you mentioned a couple weeks ago, you may introduce a 
bill on this to incentivize this type of, you know, 
construction and development. We would support those types of 
efforts, because this is critical to our defense network as 
well. It is, it's also important for the reasons, I think, you 
were alluding to earlier.
    I was just down in Chile just a few months ago and I met 
with the President there, had a very good conversation and she 
was very, very proud at the time of both their, you know, solar 
energy and their wind energy. The challenge she has is that she 
can't move it from the north to south.
    Senator Heinrich. Delivery, right.
    Mr. Brouillette. So, you know, we have some similar 
challenges here in the United States as well. Tremendous solar 
capabilities in the southwest in your part of the world, less 
so in other parts, but moving that electricity from your part 
of the world to the northeast is a bit of a challenge at times. 
So we have to fix those types of issues if we're going to see 
the continued acceptance and the continued development of 
renewable technologies.
    Senator Heinrich. To avoid the worst impacts of climate 
change, it is pretty clear that in addition to eliminating our 
current emissions we are actually going to have to pull some 
carbon back out of the air. If you are confirmed, is increasing 
DOE's research efforts in the area of direct air capture 
something that you are willing to focus on and commit to?
    Mr. Brouillette. Absolutely.
    Senator Heinrich. Great.
    Mr. Brouillette. Absolutely.
    Senator Heinrich. I think that is going to be really 
important.
    One of my frustrations with DOE has simply been that DOE's 
home appliance and light bulb standards, which have been 
incredibly productive economically saving my constituents an 
estimated $400 a year, have not gotten, always, the attention 
that they are due. I am concerned that the Department has now 
missed legal deadlines on issuing, I think it is 19 new 
standards overall and some are more than three years late. Are 
you willing to commit to assuring that DOE is finally meeting 
whatever its legal obligations are to set and update energy 
efficiency standards?
    Mr. Brouillette. Sure, we will do that.
    Senator Heinrich. Great.
    Lastly, the Chair mentioned this, but is there anything you 
want to share about ARPA-E, because there has been this 
mismatch between the budget proposals and a broad, bipartisan 
support of that program which we all recognize has been 
incredibly helpful to our nation.
    Mr. Brouillette. Yeah, happy to address that, Senator.
    As you and I have discussed in the past, in some respects 
it's both a blessing and a curse, I should say, to have worked 
on this side of the branches of government, if you will, having 
been a staffer in Congress, I'm fully aware of the budget 
processes and how they work. Now that I find myself in the 
Executive Branch, the commitments I can give to you are that I 
will fight for these programs within our Department because I 
think they're important. But it's also important to understand 
that I don't have the final say in what comes over to the 
United States Senate or the Congress, but I give you my 
commitment that I will fight for these programs.
    Senator Heinrich. That is what we would ask. Thank you.
    The Chairman. Thank you, Senator.
    Senator Cassidy.
    Senator Cassidy. A well put answer at the end, very 
tactful, but also very explicit. So thank you.
    Innovation, which we all are interested in. There was a 
quote yesterday from the Federal Reserve Chair. He said, ``The 
energy independence of the U.S. is something that people have 
talked about for 50 years, never thought it would happen. It 
has. It's a great thing.''
    Mr. Brouillette. It's a great thing.
    Senator Cassidy. It is a great thing. So a lot of what you 
have been discussing today has been innovation. I would like to 
go to 45Qs as did Senator Hoeven, but Senator Hoeven kind of 
focused on the coal aspect of it.
    Mr. Brouillette. Yeah.
    Senator Cassidy. But as we read, both the U.S. and 
worldwide and, by the way, that is important, but in the U.S. 
and worldwide natural gas is increasingly being used.
    Mr. Brouillette. That's correct.
    Senator Cassidy. You are familiar with the geology of 
Louisiana, I happen to think that it's ideal for 45Qs, the 
storage of carbon dioxide, maybe in an old oil or gas well in 
creating, if you will, one more incentive for folks to set up 
industry and create jobs in my state, but perhaps in others.
    So we have a Committee recommendation to pursue this, but 
how could you ramp up the gas research and development aspect 
post enactment?
    Mr. Brouillette. I'd like to take a closer look at how we 
might apply to the natural gas industry. And thank you for 
taking time to meet with me in your office. You know, I must 
say, I'd heard bits and pieces about the natural gas industry's 
interest in this, but you've made it perfectly clear what the 
impact is, what the revenue streams could be and what the 
future could look like if we did apply to natural gas.
    I must tell you that I'm not fully understanding all of the 
aspects of this, but I understand clearly where you want to go 
and I would support that. I think it's very important that we, 
you know, we pursue these types of technologies, not just for 
coal which we have developed a lot of, you know, we've done a 
lot of good work, I should say, within the Department of Energy 
on carbon capture for coal. But I'd like to study it more and 
I'd like to engage not only your office and you, personally, 
but also our national laboratories. I'd like to talk to, for 
instance, Dr. Brian Anderson is here from NETL. I'd like to 
talk to him. I'd like to talk to Steve Ashby out at PNNL and 
other laboratories as well to see how we might do this 
correctly and how we might incentivize this to come to the 
market.
    Senator Cassidy. Okay.
    So that might be, kind of, you may have answered this next 
question, but what do you see as the barriers to the 
commercialization of carbon capture technology for natural gas? 
Is that something, kind of, we have to explore it further to 
see what the barriers are?
    Mr. Brouillette. Well, I think one of the barriers, clearly 
now, is we're waiting on an IRS rule on 45Q. I think if we can 
establish some certainty around those particular rules, you'll 
see private capital coming into the game much, much quicker. 
And I think that's important for us to do. We can do a lot at 
the DOE. We can, you know, this Committee and the 
Appropriations Committee, in general, has been very, very 
supportive of our work and has funded it and supported it very 
strongly, but I think at this point we have to have certainty 
with the tax law so that we can get private capital to come 
into this.
    Senator Cassidy. Next, again related, the International 
Energy Agency has estimated an increasing use of energy about 
one percent per year, and with that they imagine or project 
that there will be increased greenhouse gas emissions related 
to that. In part, that must be related to expanding populations 
in Asia and Africa and the fact that disproportionately they 
are using coal for their electrical needs.
    Mr. Brouillette. Correct.
    Senator Cassidy. Now it occurs to me that if the EU and 
U.S. is decreasing greenhouse gas emissions by converting from 
coal to natural gas, why should we not build in on the front 
end a natural gas capability? It does not mean you wouldn't 
want to use sunshine and wind where it is feasible, but for 
industrial processes giving you that baseload?
    I guess I am asking, and China, by the way, is building 
these coal-fired plants, so it is both a market loss as well as 
an overall increase in greenhouse gas emissions. What could we 
do as a nation or at your Department to promote the use of 
natural, liquified natural gas instead of the coal-fired plants 
that are being built? So it is our technology, it is our jobs 
and it is cleaner burning. What could we do to encourage that 
for Africa as they increase their needs, for example?
    Mr. Brouillette. Well, I think, sure, you know, we talked 
about earlier having a chief commercialization officer and 
taking these technologies out of the Department of Energy's 
laboratories and sharing them more broadly, not only here in 
the United States, but all across the world. The Secretary and 
I have done a fair amount of work----
    Senator Cassidy. Now, this now seems more than just the 
transfer, if you will, of research, but it also seems to be a 
policy which says, wait a second, we have an energy industry 
which is being out hustled by China with consequences not just 
for jobs but also for the fact that they are using coal instead 
of gas and so therefore, releasing more. Obviously these have 
30-year lifespans at least.
    Mr. Brouillette. Correct.
    Senator Cassidy. So it seems that we go more beyond just 
the, kind of, transferability of research into almost an 
industrial policy.
    Mr. Brouillette. It's almost an industrial policy, but 
unfortunately that's not something I can do I guess at the 
Department of Energy. It's really something that we ought to 
work together with the U.S. Congress to adopt as a national 
policy, a national industrial policy. If that's what the 
Congress wants to do, we would be very supportive of that.
    I agree with you. It makes perfect sense. If we're going to 
sell natural gas, if we're going to, you know, promote U.S. LNG 
around the world as a potential, you know, supplement to 
renewable energy, or in some cases replacing other perhaps more 
emissions emitting types of energy, then we ought to attach it 
to, you know, carbon capture type technology that allows us to 
have the best of both worlds, if you will--clean natural gas as 
well as a renewable technology to, you know, to offset the 
emissions or whatever is left in the natural gas burning.
    Senator Cassidy. Well, thank you very much. I yield.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair. I want to note a 
historic moment in this hearing when Senator Barrasso said, 
``We can't tackle climate change alone.'' I could not agree 
with him more. I hope that he will urge the President to rejoin 
the Paris climate accord which is the only, ongoing, 
international effort to deal with this issue. A molecule of 
greenhouse gas which comes from the United States causes as 
much climate problem as one that comes from China or India or 
anywhere else in the world.
    So I am going to speak to Senator Barrasso afterwards. I am 
delighted he has taken an interest in this and hope we can get 
back into our area of global leadership and join the other 197 
signatories to the Paris accord.
    Mr. Brouillette, everybody is trying to claim you today. As 
you know, if your ancestors had gone slightly west instead of 
south in 1756, you would be a Mainer.
    [Laughter.]
    Mr. Brouillette. I would be. I would be.
    Senator King. Substantial population of Acadians in 
Northern Maine and we love them and so, I know how to pronounce 
your name because there are many people of similar extraction 
in the northern part of our state.
    First, I don't think there is much more important than--of 
what you are doing, what your Department does--than research. 
We talked a lot about energy independence and the fracking 
revolution which, as you know, was largely supported by 
research funds from the Department of Energy.
    Mr. Brouillette. That's correct.
    Senator King. I just want to hear you reassure me that your 
commitment will be to a strong and vigorous and forward-looking 
research whether it is in the national labs or throughout the 
Department, ARPA-E, these are very important in the national 
interest in my view.
    Mr. Brouillette. You have my commitment on that, Senator.
    One of the things that I've noticed, and one of the things 
I would like to work with this Committee on as well as the 
other committees in Congress, is to move some of the research 
that we're currently doing, perhaps, more to the basic side of 
the equation, more basic science. We have a tremendous 
organization in the Office of Science within our Department, 
and I'd like to see the next generation, if you will, of some 
of the renewable technologies that we're beginning as Americans 
to take for granted.
    I mean, we talked about this in your office and thank you, 
sir, for taking the time to meet with me.
    You know, we're looking for the next generation of solar 
panels. We're looking for the next generation of wind 
technology----
    Senator King. And storage, and transmission.
    Mr. Brouillette. ----and storage. And we want to think 
about these things in perhaps a slightly different way. As we 
talked about in your office with regard to battery storage, for 
instance, we've long thought about battery storage as simply 
filling a gap. You know, if the sun doesn't shine, cover the 
four hours while the clouds are out, if the wind stops blowing, 
cover the two hours that the wind is not blowing. We ought to 
be thinking about battery storage, perhaps, in a more broad 
context. And what I mean by that is, you know, perhaps 
batteries are important for resilience, not only as a backup 
for, you know, renewable energy but a backup for fossil fuels 
as well.
    Senator King. I totally agree. It is a national security 
issue and it's also a completely changed world in terms of the 
use of renewables.
    I am going to Oak Ridge in two weeks, as a matter of fact, 
with Senator Alexander. Oak Ridge has a relationship with the 
University of Maine that is very beneficial to both sides, and 
I urge you to support that kind of hub and spoke relationship. 
The national labs are such a treasure.
    Mr. Brouillette. Absolutely, it's a very exciting project 
that we have with the University of Maine on additive 
manufacturing. We're very excited about that program, and I 
think you will see that expand.
    Senator King. Thank you. I am looking forward to it.
    A couple of substantive questions. A lot of talk about LNG 
exports which have a lot of positive benefits in terms of the 
American economy and also our neighbors and friends having a 
cleaner source of energy. My concern is if energy, if LNG 
exports, rise to some critical level, and I don't know what 
that level is, it will start to have a negative effect or, I 
guess, a positive effect, make prices higher domestically.
    Mr. Brouillette. It depends on what part of the business 
you're in, I suppose.
    Senator King. That is exactly right. And I am in the 
consuming business in New England and the price, the low price, 
of natural gas here is one of our competitive advantages 
worldwide. I would hate to see us lose that by exporting to the 
point where it drives our domestic prices up. This happened in 
Australia. This is not an abstract concern. Is this something 
that you have some interest and concern about?
    Mr. Brouillette. Yes, we monitor very closely, as a matter 
of fact. I'm aware that there are, I think, four or perhaps 
five studies that have been done. The latest one was done by 
NERA, N-E-R-A, and I've forgotten what the acronym stands for 
off the top of my head but, you know, that study shows that, 
you know the increased production in the United States has not 
yet had a dramatic impact on price. And I think that's borne 
out by the market prices----
    Senator King. And the new production of LNG, you are 
saying?
    Mr. Brouillette. The new production as well as the expanded 
export capacities that have developed----
    Senator King. Right.
    Mr. Brouillette. ----over the course of the last four to 
five years.
    Senator King. I would agree with that study, but I just 
want to keep an eye on it.
    Mr. Brouillette. Yes, sir. Yes, sir.
    Senator King. Because once you build $100 billion worth of 
export capacity and you start exporting it and then you say, uh 
oh, we have doubled our domestic prices, it is too late. I just 
think this is something that should be carefully weighed 
because of the effects on the rest of the U.S. economy.
    Mr. Brouillette. Yes, sir, understood, and we do monitor 
very closely. And I will work closely with EIA and others who 
track these types of things for us in the Department.
    Senator King. I am out of time, but I am going to give you 
a question for the record. My concern is about the methane 
associated with the extraction of natural gas. Methane is 84 
times as potent as natural gas in terms of a greenhouse gas. 
Twenty-five percent of the greenhouse gases now are methane. I 
am worried that we are not adequately controlling that, that it 
is an unintended negative byproduct. It is something that, I 
think, we need to pay some attention to in terms of research 
and, frankly, regulatory control.
    Mr. Brouillette. Yes, sir. Yes, sir.
    Senator King. Thank you. I will submit a detailed question. 
I look forward to your response.
    Mr. Brouillette. Yes, sir. Yes, sir, I'll respond to you.
    Senator King. Thank you.
    Mr. Brouillette. Yes, sir.
    Senator King. Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Daines.
    Senator Daines. Chair Murkowski, thank you and Ranking 
Member Manchin as well. Mr. Brouillette, congratulations on 
your nomination.
    Mr. Brouillette. Thank you, sir.
    Senator Daines. You will be the next Secretary of Energy. 
That is a big deal.
    I first want to invite you out to Montana. As we chatted 
when you came by the office, and I really enjoyed our 
discussion, I would like to invite you to come out to Montana, 
see firsthand the issues that we have out in Big Sky Country 
and the opportunities----
    Mr. Brouillette. Accepted.
    Senator Daines. Okay, that was easy.
    [Laughter.]
    We have vast natural resources in Montana. It is one of the 
few states that truly does offer an all-of-the-above energy 
portfolio. Coal, more recoverable coal than any state in the 
United States. Hydro, we are a headwater state. The Missouri 
River is formed in Montana, a lot of water. Oil, gas, wind, 
solar, geothermal, they power our state. In fact, they power 
our neighboring states as well.
    We are also home to a booming tech sector specializing in 
areas like quantum computing, optics, UAVs and we also have 
one-third of our nation's intercontinental ballistic missiles 
are sourced in Montana. All of this will be under your purview, 
if confirmed, and I hope you will be able to make it out to 
Montana so you can see firsthand these great opportunities for 
growth and talk more about these issues on the ground.
    We truly are a shining example of a balanced energy 
portfolio, and I think the American people, I know I can speak 
on behalf of Montanans, they want to see a balanced view as it 
relates to our energy portfolio.
    Traditional fuels like coal as well as renewables like 
hydropower make up the largest portion of our current energy 
production in Montana. Both are reliable. Both provide 
affordable baseload power that keeps the lights on and the heat 
on in the wintertime. And we do have winter in Montana.
    Mr. Brouillette. Yes, you do.
    Senator Daines. We also have a growing wind and solar 
generation and strong potential for geothermal. However, 
Montana's balanced energy portfolio is coming under attack with 
the premature forced closures of Units 1 and 2 of the Colstrip 
Power Plant at the end of this year and the threat of dam 
breaches across the northwest. Both of these are due, in part, 
to extreme radical groups that litigate. Closing Colstrip is 
not just about the loss of over 600 megawatts of baseload 
power. It is also about the jobs, the livelihoods, the tax base 
of the Colstrip community which relies on the power plant and 
the coal mine that feeds it.
    I believe that there is a role for you and the Department 
of Energy to play in order to maintain baseload supply in 
Montana. One possibility is through investment and advancement 
of carbon capture technology like we have laid out in the 
bipartisan EFFECT Act.
    Mr. Brouillette, if confirmed, will you commit to working 
with me and with this Committee to protecting and growing 
baseload power like Colstrip and maintaining a secure and 
balanced energy portfolio?
    Mr. Brouillette. Sir, I will tell you it's been the policy 
of this Administration and perhaps even the last Administration 
to pursue an all-of-the-above energy strategy. The reasons for 
doing that are numerous, but the reasons that I think are 
perhaps most important for us today is that, in our view, 
diversity of energy supply means energy security, not only for 
our nation, but our allies across the world. So, it's very, 
very important that we continue to produce energy from all 
sources that we have here in the United States.
    The other reason I think it's important, however, is that, 
you know, until we are able to develop battery storage that is, 
has more capacity, is longer lasting, is perhaps more flexible 
in some respects, it is important that baseload power exists 
because without it, if we are, I think, objective and candid, 
the adoption of renewables or the introduction of renewables 
into our electric grid is just very, very difficult.
    So, it's important for places like Colstrip, or 
institutions or generation facilities like Colstrip, to remain 
online until we have those answers, you know, down the road.
    The other point I would make to you is that, you know, as 
we look across, I mentioned earlier, the resilience model that 
we're working on and the identification of critical 
infrastructure throughout the United States, I can commit to 
you that at the Department of Energy we're going to look at 
these types of facilities to see if they fit that potential 
model and see if there's, you know, anything that we should be 
concerned, potentially, about the loss of that institution for 
the military installations that you have identified in your 
state.
    Senator Daines. Mr. Brouillette, I appreciate this 
balanced, commonsense view as we think about managing our 
energy portfolio, of managing risk, going forward. I am one who 
supports the advances in renewable energy, but there is a 
reason we call wind intermittent energy. It is a fair 
characterization because the wind does not blow all the time. 
To solve the problem of storage here, we are going to have the 
challenge as it relates to some of these renewables, and 
technology eventually will solve these problems. But I want to 
thank you for hearing my concerns today, and I look forward to 
moving you forward here as our next Secretary of the Department 
of Energy.
    Thank you.
    Mr. Brouillette. Thank you, sir.
    The Chairman. Thank you, Senator.
    Senator Cortez Masto.
    Senator Cortez Masto. Mr. Brouillette, congratulations on 
your nomination. Welcome to your family. I want to thank you 
again for taking the time to meet with me this week in my 
office.
    Mr. Brouillette. Thank you, Senator.
    Senator Cortez Masto. As you well know, the Nevada National 
Security Site is integral to Nevada and DOE plays a big role 
there. And so, I want to ask you a couple questions as it 
relates to that site, particularly the first one obviously is 
with respect to Yucca Mountain.
    Do you support the storage of spent nuclear fuel or high-
level radioactive waste at Yucca Mountain?
    Mr. Brouillette. Thank you, Senator, for taking time 
yesterday. I sincerely appreciated that. And thank you for your 
kind words about my family as well.
    You know, the policy question that's before us on Yucca 
Mountain is really a policy question, I think, for Congress to 
make a determination on. As we have discussed in the past and 
as you well know, I'm obligated to follow the law and the law 
of the land today is the Nuclear Waste Policy Act. I'm also 
obligated to not spend money that hasn't been appropriated to 
the U.S. Department of Energy to pursue those policy directives 
that were given by the Congress.
    So at the moment I can give you the assurance that in the 
near-term, as Secretary, until the Congress makes a decision on 
Yucca Mountain, nothing will happen at the Department of 
Energy.
    Senator Cortez Masto. Thank you for your response.
    This Congress, Senator Rosen and I introduced the Nuclear 
Waste Informed Consent Act and the bill would require the DOE 
Secretary to obtain consent from the affected state, local 
communities, including the governor of the local governments, 
as well as our tribal communities before funds from the Nuclear 
Waste Fund could be used for a nuclear waste repository. Would 
you support the bill?
    Mr. Brouillette. Senator, I haven't read the bill, but I 
would be happy to do so and provide you a direct answer.
    Senator Cortez Masto. Thank you.
    And then, under your watch and that of the current 
Secretary of Energy, Secretary Perry, DOE shipped a half of 
metric ton of plutonium to the Nevada National Security Site 
from the Savannah River site in South Carolina. Working through 
Secretary Perry, I secured an agreement with DOE as codified in 
an April 24, 2019, letter to begin removing the plutonium from 
the site in 2021.
    [The letter referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9872.004
    
    [GRAPHIC] [TIFF OMITTED] T9872.005
    
    Senator Cortez Masto. When we met this week, you assured me 
that you were committed to honoring that agreement. Do you mind 
reaffirming your commitment today?
    Mr. Brouillette. I do not mind at all, Senator. I will give 
you a firm commitment that we will honor that agreement.
    Senator Cortez Masto. Thank you.
    In July 2019, the State of Nevada and the Nevada 
Congressional Delegation were notified that DOE had violated 
the waste acceptance criteria in shipping mislabeled waste to 
the site, the National Security Site. During our meeting early 
this week, you said that the Office of Enterprise Assessments 
was in the process of completing a report on the DOE's 
radioactive waste packaging and shipping policies and 
procedures.
    What guarantees can you provide me and the people of Nevada 
that DOE will not violate its contracts with the state in the 
future or allow mislabeled or misclassified waste to be 
transported from one facility to another?
    Mr. Brouillette. Sure. Senator, as we talked about 
immediately following that incident which was a self-reported 
incident inside of the Department of Energy, I called you and I 
called the Governor and I called the delegation to let you know 
of the accident, let you know of the incident, I should say. 
Following our visits there, following our conversations, the 
Secretary directed me to do an enterprise-wide assessment of 
all shipping of waste within the Department. We're about 30 to 
45 days away from that final report, or at least the first 
draft of a complete report. I will come to you. I will share 
with you that draft. What we have found and what I can tell you 
at this point in time is that we have found some very minor 
deficiencies--public health, public safety in this incident and 
in the minor deficiencies that we found has never been at risk.
    Senator Cortez Masto. And is that report, once it is 
finalized, can it be made public?
    Mr. Brouillette. It will be made public.
    Senator Cortez Masto. Thank you.
    So, and I asked you this question, so between Yucca 
Mountain, the years of mislabeled waste being sent to the test 
site, the secret plutonium shipments, Nevadans have very little 
reason to trust DOE at this point and the nuclear program is 
overseen by DOE. So, if confirmed, what steps will you take to 
improve communication and trust with the State of Nevada?
    Mr. Brouillette. Senator, I appreciate your concerns and, 
as you and I discussed, I happen to have family there so I'm 
very, very sensitive to these issues as well. I can give you my 
personal commitment that I will spend personal time on these 
issues. I will be available to you, obviously, and to your 
staff. I will work diligently and apply the skill sets, the 
business skill sets, that I think I bring to the table, to look 
at these types of processes within the Department of Energy and 
ensure that they are robust, that they follow the proper 
procedures and that they're all following the regulations that 
we are all guided by within the Department itself.
    Part of that is just, you know, mapping out things. Part of 
that is changing the culture of some of these organizations. 
And I will give you my personal commitment that I will make 
every effort to do that.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator.
    Senator McSally.
    Senator McSally. Thank you, Madam Chairwoman. Mr. 
Brouillette, good to see you again.
    Mr. Brouillette. Good to see you, Senator.
    Senator McSally. I enjoyed visiting with you in my office a 
few weeks ago.
    Mr. Brouillette. Thank you, Senator.
    Senator McSally. We talked about a number of things, but 
one is how Arizona is really leading in a lot of new 
technologies and a real all-of-the-above energy strategy which 
many of us have talked about supporting. I appreciate the 
Department's commitment to that.
    We have the, you know, the hydropower generated by the 
Hoover and Glen Canyon Dam. We have the Palo Verde, ultra-
efficient Palo Verde nuclear plant and we also have a growing 
solar array because we have a lot of sunshine and wide-open 
space. We are now number three in solar in Arizona with the 
opportunity to grow, but as has been mentioned, we still need 
breakthrough technologies in storage because the sun does not 
shine at night.
    Arizona research institutions and companies are working 
really hard on research for this type of technology and so, I 
just want to get your perspective on, you know, support from 
the Department on working with universities and the private 
sector, specifically, on the energy storage issue because we 
are going to hit a point where we cannot really go much further 
on some of these energy initiatives unless we can have 
breakthroughs in the storage.
    Mr. Brouillette. I think you're absolutely right, Senator, 
and I look forward to working with you, should I be confirmed, 
and the good folks in Arizona to figure out some of these tough 
problems. You know, we just, we're very, very interested in 
developing the talent that we need to hire over the course of 
the next, call it five or ten years, and I think we're going to 
see that coming through a number of different avenues.
    But one of the things I'd like to mention to you, and I 
know it's not in your state, so I apologize for that, perhaps 
we can do one in Arizona as well, but recently Dr. Martin 
Keller was here from the National Renewable Energy Laboratory 
in Boulder, Colorado. He worked closely with the university 
there, the University of Colorado Boulder, to start a brand-new 
graduate program that's focused on renewable energy. And that's 
a partnership with the lab itself. So I'd like to explore 
opportunities like that as well so that we can build this 
pipeline of talent coming into these areas, you know, we need 
these scientists to join us to work on these tough problems.
    With regard to the technology itself, I mean, we've, you 
know, discussed some of that. There is another effort that I 
would like to just mention to you, again, not in Arizona, so I 
apologize for that, but it's all on the West Coast and what we 
call it is the Grid Storage Launchpad, and it's being done with 
one of our national laboratories in the northwest, Pacific 
Northwest National Laboratory, we refer to it as PNNL. It's a 
fantastic operation and a fantastic opportunity we have to 
develop technologies that will be grid-scale storage, not just 
the smaller batteries that you see in people's homes, but this 
is large battery storage. We're very excited about that.
    And again, I'd like to work with you on those kinds of 
issues.
    Senator McSally. No, great. Well, I would like to invite 
you out to Arizona as well----
    Mr. Brouillette. Accepted.
    Senator McSally. ----to see if there is a place for 
Arizona's universities to participate in some of these 
initiatives.
    There is also an issue with the supply chain, of course, 
for energy storage. I talk all the time to people who come in 
to advocate for green energy and I say to them, oh, you must be 
pro-mining because these materials come out of the ground. I 
sometimes get a blank stare as a response, but one of the five 
Cs for Arizona is copper. We produce more than 65 percent of 
the nation's copper, but raw materials like copper and nickel 
and cobalt and other critical minerals are essential to 
building things like the solar panels, the transmissions line, 
the batteries and all that goes with that.
    So we can't have green tech without having mining. And 
American mining, where we are also having breakthroughs in 
technology to have the cleanest, best stewards of our 
environment in our mining, is certainly something that should 
be supported if we are trying to advance green energy, in my 
view. And recycling has to be a part of the mix as well, and 
the R&D on recycling--I have teamed up with my fellow Arizona 
Senator Sinema on legislation to jump-start some of this 
recycling.
    I just want to ask your perspective on the supply chain and 
that being a part of DOE's approach, you know, working with 
Interior and others to make sure we have a secure supply chain 
for these technologies.
    Mr. Brouillette. You're absolutely correct about that. 
That's why I mentioned it earlier to Senator Manchin. It's one 
of the opportunities we see for the mining industry, for the 
coal industry, the copper industry, in your case. These are 
critical materials or critical minerals, I should say, that 
we've become, you know, not only dependent upon but, you know, 
reliant upon for some of these newer technologies.
    So if we have opportunities to look at coal ash, if we have 
opportunities to look at some of the residual, you know, 
materials that are left over from mining operations and we can 
extract from that at least a portion of the minerals that we 
need, we're going to make every opportunity to make every 
effort to do exactly that. The lessening of our dependence upon 
nation-states, again, who don't have our interests at heart, is 
something that we have to do.
    And I appreciate your military service. And again, I must 
tell you and I say this on the record, I have never been so 
nervous in all of my life to be standing in front of an A-10 
pilot as a former Tank Commander. It, the stress, was very 
high. I'll just leave it at that.
    [Laughter.]
    Senator McSally. It is all good. We love to provide that 
close air support overhead.
    I am out of time, but I do want to ask a question for the 
record related to woody biomass. That is something else that 
Arizona is leading on as we have mismanaged our forests for so 
many years. Now, as we are finally going in to try and manage 
it, it is an issue of wildfires, it is the management of water, 
you know, watershed, but also the stuff that would normally 
just be thrown away, using that as woody biomass to actually 
generate energy, and we would love to have your commitment to 
work with us on that.
    Mr. Brouillette. Yes, ma'am. I'll take that question for 
the record----
    Senator McSally. Okay.
    Mr. Brouillette. ----and look forward to getting back to 
you.
    Senator McSally. Great, thank you.
    Mr. Brouillette. Thank you.
    The Chairman. Thank you, Senator McSally.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    To ensure the fitness of all nominees to these appointed 
positions, I ask the following two initial questions of every 
nominee who appears before any of the five committees on which 
I sit.
    First question. Since you became a legal adult have you 
ever made unwanted requests for sexual favors or committed any 
verbal or physical harassment or assault of a sexual nature?
    Mr. Brouillette. No, ma'am.
    Senator Hirono. Have you ever faced discipline or entered 
into a settlement relating to this kind of conduct?
    Mr. Brouillette. No, ma'am.
    Senator Hirono. Mr. Brouillette, this Committee asks each 
nominee under oath if they will be, ``Available to appear 
before this Committee and other Congressional committees to 
represent departmental positions and to respond to issues of 
concern to the Congress.'' However, Secretary Perry has refused 
to comply with a subpoena for records about his dealings with 
Ukraine pursuant to the House of Representatives impeachment 
inquiry. Will you comply with subpoenas duly issued by 
Congress?
    Mr. Brouillette. Senator, as part of my oath here, I said I 
would make myself available. If I were to receive a subpoena 
from the U.S. Congress, I would, of course, consult with 
Executive Branch counsel and, assuming that the subpoena was 
properly served and the opportunity to be represented by 
Executive Branch counsel, I would make myself available.
    Senator Hirono. Thank you. One assumes that the subpoenas 
were duly issued.
    The United States has historically acknowledged a duty of 
individuals, in fact, we have laws that everyone who serves in 
the Federal Government has a responsibility to come forward to 
report misdeeds, fraud, violations of law and we do 
acknowledge, and I hope you do--you acknowledge the 
contributions of whistleblowers to combat abuse, fraud and 
violations of laws?
    Mr. Brouillette. I do and I fully support the whistleblower 
laws on the books, and I will give you a commitment. We have 
begun a process of reviewing the contracts that we have with 
contractors in the Department of Energy. I will ensure that the 
whistleblower provisions that were most recently passed by 
Congress are included in those contracts.
    Senator Hirono. It sounds as though you would commit to 
protecting whistleblowers within your Department should you be 
confirmed, and you would protect them from retaliation as 
required under the Whistleblower Protection Act?
    Mr. Brouillette. Yes, ma'am, I would.
    Senator Hirono. And you said that you are actually coming 
up with some kind of guidance or something that your 
Department, should you become confirmed, will adopt along these 
lines?
    Mr. Brouillette. We, yes, ma'am, we have instituted 
guidance. We've instituted training within the Department of 
Energy, but again, we've also reviewed all of our contracts 
that we have with outside contractors to ensure that the 
whistleblower protections that Congress intended when it passed 
the statute are part of the contracts that we have with these 
employers.
    Senator Hirono. It must cause you some concern that there 
are all these calls for the disclosure of the whistleblower who 
brought to our attention what happened with regard to Ukraine.
    There is a lot of discussion about the importance of 
battery storage and Hawaii has a commitment to becoming 100 
percent sustainable off of full electrical energy, so battery 
storage is a big deal for us. Can we look for some 
breakthroughs in energy storage, including grid storage from 
the Department of Energy and all your partnerships, with the 
various national labs?
    Mr. Brouillette. I certainly hope so. I certainly hope so.
    Senator Hirono. I am looking forward to that because we 
have been talking about the importance of battery storage to 
actually enable all of us to use all of the energy sources in 
the land to basically lessen our reliance on fossil fuels and 
that requires battery storage because it is intermittent power.
    The Republic of the Marshall Islands is one of our very 
close allies, and last month the Department of Energy signed a 
memorandum, an MOU, with the Department of the Interior to 
conduct a radiochemical analysis of groundwater surrounding the 
Cactus Crater waste containment site on Runit Island in the 
Republic of the Marshall Islands, commonly referred to as the 
Runit Dome. The study will also assess the structural integrity 
of the site which houses contaminated soil and radioactive 
debris from U.S. nuclear weapon tests.
    The people of the Marshall Islands have a right to know 
about the scope and scale of potential problems with the Dome 
and of impacts to human health and their environment that 
result from a compromised dome, and the study is very 
important. It will help us to address these concerns. If 
confirmed as Secretary, will you commit that the Department 
will complete this report and submit it to the Committee on 
time?
    Mr. Brouillette. I will commit that we will submit whatever 
report we're required to on time. Senator, I'd like the 
opportunity, however, to review the MOU. I'm not intimate with 
it. I'm not familiar with it, but I would like that opportunity 
and respond to you, perhaps in writing.
    Senator Hirono. That would be fantastic, thank you.
    The United States has not conducted nuclear weapons tests 
since 1992, and that is really a big part of the Secretary's 
responsibility. I know that it came as news to your 
predecessor, or soon to be. Have you been briefed by the 
directors of the Los Alamos and Sandia and Lawrence Livermore 
National Laboratories on the significant advances that DOE has 
made in the ability to maintain the U.S. nuclear arsenal in the 
absence of testing?
    Mr. Brouillette. Yes, I have been and we are in the process 
as we speak as a matter of fact. The lab directors are engaged 
in a process of assessing and providing their assessment to us 
of the stockpile itself. So yes, they have been, I have been 
briefed on it and I look forward to hearing their assessment, 
perhaps within the next week and a half.
    Senator Hirono. I think we have an aging stockpile, and I 
think we need to be assured that--of the safety issues that are 
involved and all of that. So thank you. I look forward to 
working with you on all these and other matters.
    Mr. Brouillette. Thank you, Senator.
    Senator Hirono. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and thank you, 
Mr. Deputy Secretary Brouillette, for being here.
    Mr. Brouillette. Thank you.
    Senator Cantwell. I was wondering if you remembered our 
conversation when you came by.
    Mr. Brouillette. I do.
    Senator Cantwell. You said you had two priorities. Do you 
remember what you told me they were?
    Mr. Brouillette. Cybersecurity and Hanford.
    Senator Cantwell. Thank you.
    [Laughter.]
    Isn't that amazing after all this time we both remember 
that?
    [Laughter.]
    I want to go back to Hanford for a second.
    Mr. Brouillette. Sure.
    Senator Cantwell. Well, first let me laud my colleagues. My 
colleagues, the Chair Murkowski and Ranking Member Manchin, are 
still working on our energy bill but there are some very robust 
provisions in there for DOE to play a major role in 
cybersecurity. We just hope that you will help make that a 
reality. We think we have an education shortage issue, and we 
think that DOE could play a very big role here.
    Obviously the Committee has many other issues, but I hope 
that they are successful in dealing with that and DOE playing a 
more major role just in talking to our colleagues. I think 
practically every Committee here in Congress has had some 
hearing on cybersecurity, but when they get right down to it, 
they realize oh, wait, it is the grid and the grid and the 
grid. So I really do believe that DOE has to play a more robust 
role here in a leadership way. Hopefully you can do that.
    Let me ask you about Hanford since we both remember that 
that was a big priority. To meet the Department of Energy's, 
and I know you mentioned that Mr. Vance is here--we very much 
appreciate that and other DOE officials from Hanford--but we 
need, obviously, to get the right budget. I think the FY20 
funding level was well over a billion below the compliance 
budget level.
    Now I am sure you know very well the challenges that we 
face as a state in that we have milestones and they have to be 
met and that there is a legal obligation by the Department of 
Energy to meet those milestones. I would just like to hear your 
commitment again to working with all of us in meeting those 
milestones.
    Mr. Brouillette. I'm fully committed to that, Senator. And 
we have engaged with the State Department of Ecology. We have 
notified them of a risk situation there, high risk notice, if 
you will, is what it's called. We are very much committed to 
the program that we have currently established.
    When you and I had this conversation, I think, almost two 
years ago, I think, two and a half years ago now.
    Senator Cantwell. Yes, we should clarify for people, that 
was not last week that we had that conversation.
    [Laughter.]
    It was years ago----
    Mr. Brouillette. It was some time ago.
    Senator Cantwell. Yes.
    Mr. Brouillette. But I do recall.
    And you know, you pointed out to me at that time, I think, 
rightfully so, that you were concerned, you know, that a new 
administration comes in and the program changes. In other 
words, we move the ship to the right or to the left and we do a 
180 and things slow down and nothing gets done and cleanups 
don't happen on time.
    We have chosen not to do that and that's largely at your 
advice and largely at your direction. We're going to continue 
the mission at Hanford. We're going to continue the progress 
that we've already made. As I mentioned earlier, I'm proud that 
we have moved the last radioactive waste out of the K-Basins 
and away from the Columbia River. That's not the end of the 
story, however, for Hanford. We have much more to do.
    I'm working closely with the contractors there and we're 
bringing some, I hope, business discipline to some of their 
operations so that we can speed up these cleanup efforts. But I 
want to assure you, give you my commitment that I'm firmly 
committed to this cleanup operation. It is the highest, one of 
the highest priorities, I should say, it's the highest within 
the EM program. It ranks right at the top of my priority list. 
And should I be confirmed as Secretary, I will be there quite 
often.
    Senator Cantwell. Well, that should be good news for 
everybody in the northwest and for the nation, because it 
obviously is a very complex cleanup problem.
    Mr. Brouillette. It is.
    Senator Cantwell. I think people forget the elements of 
what we did in meeting the nation's need and securing 
production at that time, but we have to remember that the 
cleanup responsibilities are just as dire and challenging. So 
thank you for that commitment.
    The HAMMER Federal Training Center provides really great, 
exceptional work for our workforce who are committed to making 
sure that there is a safe procedural process at Hanford. Are 
you committed to continuing working with Hanford and the HAMMER 
facility?
    Mr. Brouillette. Yes, I am and Brian and I have had these 
conversations on a regular basis about the importance of 
HAMMER, the importance of processes and procedures on the 
installation so that worker safety remains paramount.
    Senator Cantwell. Okay.
    And there are clearly a lot of priorities at Hanford, 
including the startup and operation of the direct-feed, low-
activity waste facility, the DFLAW, as you know.
    Mr. Brouillette. Correct.
    Senator Cantwell. How would you--talk about that for a 
second and how you think we keep moving forward.
    Mr. Brouillette. Sure, sure. I think that's part of what 
we, what I meant earlier when I said we're not going to change 
the ship. What we did was focus our efforts on DFLAW so that we 
can actually get that process started and going. And we're 
right now, I think, on schedule for around 2023 to begin those 
operations.
    The balance of facilities are going to be online very, very 
shortly which means the administrative buildings and the things 
that have to support that institution, but we have focused and 
made that our priority. We have to do that first and right. I 
guess, in a very simple parlance, let's do something, let's get 
something started and show that it works so that we can get to 
high-level waste and do the other things that need to be done 
in this very complex facility that we have.
    Senator Cantwell. Thank you. Thank you, Madam Chair. Thank 
you.
    Mr. Brouillette. Thank you, Senator.
    The Chairman. Thank you, Senator Cantwell.
    I knew you would be back to query the Deputy Secretary on 
Hanford, so you did not disappoint there.
    Mr. Deputy Secretary, I had an opportunity this morning to 
be with Secretary Perry. This was at the IFNEC Global 
Ministerial on small modular reactors and advanced nuclear and 
it was really a good gathering of international leaders focused 
in this area. The Secretary articulated a very strong vision 
for the U.S. role in this space, and then I was able to follow 
him with comments about what we are doing legislatively in 
tandem with the Administration to move out on this 
extraordinary potential.
    As you know, we have advanced the Nuclear Energy Leadership 
Act, NELA, but what we do within this legislation is we focus 
on the reality that most of these reactors are going to require 
the high-assay, low-enriched uranium, the HALEU, which we know 
is not currently produced here. So we are looking to what it is 
that we need to do in order to facilitate this opportunity for 
us here in this country.
    I know that this is something that the Department is 
looking at, the NELA legislation, in addition to everything 
else that we have already advanced and put into law, some of 
the other pieces that we are working to help facilitate. But I 
pointed out in my opening comments that it should not be 
unusual or odd that a Secretary from a producing state like 
Texas or someone like me from a producing state like Alaska 
would be interested in the prospects and the future for 
advanced nuclear and all that it provides.
    Hopefully the Department is considering what a 
comprehensive advanced nuclear fuel program would look like to 
anticipate these near-term needs, but know that that is going 
to continue to be a priority of mine. It certainly has of 
Secretary Perry and hopefully you will continue that as well.
    Mr. Brouillette. It will be, Senator.
    You know, there's a number of different issues there in 
your question. What we are going to advance at the Department 
of Energy are things like the versatile test reactor at INL. 
Dr. Mark Peters is here. That's a very high priority for us. I 
mean, that particular reactor, that piece of equipment, if you 
will, allows us to test materials, it allows us to utilize 
processes that will test, you know, newer fuels, so that they 
can qualify, perhaps get through regulatory processes a lot 
sooner.
    We're also going to conduct, you know, a pilot project for 
HALEU. And we think that's very important for a number of 
different reasons. We want to get to a place where we can 
develop small, micro reactors, one to five megawatts. Small, 
modular reactors, I think, have a very bright future and we're 
very excited about their path forward throughout the regulatory 
process.
    But if we can make them even smaller, then it can serve 
communities that you showed me in Alaska, I think, much more 
easily and places like where I grew up in Louisiana where 
there's only 200 people and, as I told you in Alaska, perhaps 
more alligators than people on any given day. If we can get 
small reactors into those types of areas in the country, we've 
not only provided them with a clean, reliable source of power, 
we've taken, I think, a good step forward in reducing carbon 
emissions throughout the world.
    So it's something that's very important to us at the 
Department. It's something I do want to continue should I be 
confirmed as Secretary, and I look forward to working with you. 
And I must say, for the record as well, thank you for allowing 
us to borrow Dr. Ben Reinke who is very intimate with your 
piece of legislation.
    The Chairman. Well, thank you. We are working those 
together. I think it is a good package.
    Senator Manchin, did you have any final questions?
    Senator Manchin. Just briefly. I just want to make a 
statement on how important--we have talked about this, Mr. 
Brouillette--how important this job is. I mean, you look at 
history and you look at energy, the role energy's played in 
history and where we are as a people and in our nation how it 
has played out with us being blessed with having a lot of 
resources for our nation to defend ourselves, stability, 
industrial might, to be the super power of the world. I go back 
and I think about my grandparents talking about the first time 
they received electricity and remembering that my grandmother 
was so tickled to have a refrigerator and then they got a 
washing machine. Those are the two things.
    Mr. Brouillette. Wow.
    Senator Manchin. I think today, we were just talking to the 
staff, thinking about, we probably have a billion, out of 7.5 
billion, maybe a billion people without any energy, access to 
energy whatsoever in the world and their desire to have what we 
have taken for granted.
    But also, the threat because of all the terrorism that goes 
on and how susceptible we are and that is cyber, as we talked 
about. Also us being on the cutting edge, if you will, and our 
ability to stay ahead of the rest of the world and the other 
nations who want to challenge our status, by using energy as a 
geopolitical tool and holding people hostage, and all the 
things that are going to be under your purview.
    I just want you to know you are going to have us as 
partners with you. We want you to succeed. We want you to do 
well. We want you to be able to come to the Committee and not 
look at us as Democrats and Republicans but as Americans that 
want our country to prosper, but to help lift others around the 
world that are seeking the same opportunities in life that we 
have been able to have.
    So I wish you well. Godspeed.
    Mr. Brouillette. Thank you, sir.
    The Chairman. Thank you, Senator Manchin, well said.
    Deputy Secretary, you have fielded a range of issues here 
this morning, everything from the Arctic to advanced nuclear to 
the waste issues to critical minerals, energy storage, LNG. We 
have covered the gamut, and you have articulated very well from 
a policy perspective. It is quite clear that your knowledge, 
the breadth and depth of it, of energy writ large, is very 
substantive but also your keen understanding of the Department 
of Energy, its responsibilities, its roles and the promise that 
it can hold, again, not only for this country, but for other 
nations as they look to our leadership in so many of these 
different areas.
    I am a little concerned, however, you have made commitments 
here to visit Alaska, West Virginia, Arizona, Montana, Maine, 
Wyoming and Nevada. I am a little concerned you are not going 
to have time for the day job here. But we will work with you as 
you seek to gain better understanding and appreciation of all 
that our great states have to offer in these very important 
areas.
    Again, I want to thank your family for joining you here 
today.
    To you, I have never seen such well-behaved young people 
sitting behind their father, no squiggling, no squirming. I did 
catch a little bit of a nap there, and I am totally with you on 
that, guy.
    [Laughter.]
    But I also want to recognize your national lab family that 
you have here. We know that the men and women who serve in our 
national labs are an extraordinary, extraordinary, asset to our 
country, and I know that they are a very tight-knit group, 
having hosted many of you in the State of Alaska. So the fact 
that they are here in your support is also a testament to the 
dedication that you have to this job.
    I think, based on what I have heard today, you will have 
strong support moving out of this Committee. It is my intention 
to try to move you through the Committee process just as 
rapidly as possible.
    Secretary Perry has announced that he will be departing on 
the first of December, and we would like to see a seamless 
transition there as we move your name forward to assume this 
very important position as Secretary of Energy.
    We thank you for being here. We thank you for your time, 
your leadership and your vision.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:30 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                              [all]
</pre></body></html>
